      Department of Homeland Security





     FEMA's Efforts to Recoup Improper Payments in 

   Accordance With the Disaster Assistance Recoupment 

                   Fairness Act of 2011 





OIG-12-62                                      March 2012

                                                            Office ofInspector General

                                                            U.S. Department of Homeland Security
                                                            Washington, DC 20528




                                                            Homeland
                                                            Security

                                   MAR 2 3 2012


MEMORANDUM FOR:



FROM:                        D. Mic el eard
                             Assis ant Inspector General
                             Office of Emergency Oversight

SUBJECT:                      FEMA 's Efforts To Recoup Improper Payments
                              in Accordance With the Disaster Assistance Recoupment
                              Fairness Act of2011

Attached is our initial letter report, FEMA 's Efforts To Recoup Improper Payments in
Accordance With the Disaster Assistance Recoupment Fairness Act of2011. As required
by the subject legislation, we are reporting on the cost-effectiveness ofFEMA's efforts to
recoup improper payments. This is the first in a series of six reports that will be issued
every 3 months through June 2013. We are not making any recommendations in this first
report.

Consistent with our responsibility under the Inspector General Act, we are providing
copies of our report to appropriate congressional committees with oversight and
appropriation responsibility over the Department of Homeland Security. The report will
be posted on our website.

Should you have any questions, please call me, or your staff may contact John Kelly,
Acting Deputy Assistant Inspector General, Office of Emergency Management
Oversight, at (202) 254-4100.

Attachment
Background
Following Hurricanes Katrina and Rita in 2005, the Federal Emergency Management
Agency (FEMA) disbursed to the disaster survivors more than $7 billion in individual
assistance payments, some of which were later determined to have been improperly paid
to individuals who were ineligible, or who received duplicate payments. In 2006, FEMA
began collection, or recoupment, efforts in an attempt to recover the misspent public
funds.

In 2007, a group of Hurricane Katrina disaster assistance applicants facing recoupment
filed a class action lawsuit against FEMA, alleging that it did not provide sufficient
procedural due process to disaster applicants identified for recoupment. The plaintiffs
successfully petitioned the court to issue an injunction enjoining FEMA from continuing
its recoupment activities. In 2008, in light of the injunction and revised Department of
Homeland Security (DHS) debt collection regulations, FEMA terminated its recoupment
process. As a result, FEMA withdrew recoupment notifications it sent to survivors of
Hurricanes Katrina and Rita and later disasters and proceeded to reexamine files for
evidence of overpayment. FEMA also began to redesign its recoupment and debt
collection procedures to conform to agency regulations.

In 2011, FEMA commenced the revised recoupment process for the collection of
individual assistance overpayments. From March through December 2011, FEMA
mailed nearly 90,000 Notices of Debt and considered thousands of appeals and requests
for payment plans and compromise. According to FEMA, because it does not have
authority to dismiss debts due to the U.S. government, even those of small or “de
minimis” amounts; all identified improper payments are to be reviewed, and are subject
to recoupment and appeal.

Some members of Congress were concerned about the fairness of FEMA collecting
overpayments that had been the result of FEMA error and when a significant amount of
time had elapsed before FEMA provided actual notice to the debtors. As a result of these
concerns, Congress passed, and the President signed, the Disaster Assistance Recoupment
Fairness Act of 2011 (DARFA) (section 565 of the Consolidated Appropriations Act,
2012, P.L. 112-74).

Individuals who fail to pay debt not waived pursuant to DARFA, or who do not respond
to FEMA notices, will be referred to the Department of the Treasury (Debt Collection
Improvement Act of 1996, P.L. 104-134).

DARFA authorizes the Administrator of FEMA to waive a debt arising from improper
payments provided for disasters declared between August 28, 2005, and December 31,
2010, if the excessive payment was based on FEMA error; there was no fault by the
debtor; collection of the debt is against equity and good conscience; and the debt does not
involve fraud, a false claim, or misrepresentation by the debtor or others with an interest
in the claim. FEMA is authorized to grant a waiver to eligible debtors with a 2010
adjusted gross income (AGI) of up to $90,000 or less; and, subject to certain conditions,


                                            2

only a partial waiver to those with an AGI greater than $90,000. DARFA also directs the
Inspector General of the Department of Homeland Security to periodically report on the
cost-effectiveness of FEMA’s efforts to recoup improper payments. This is the first in a
series of six reports addressing the state of such efforts.

Overview
As discussed with the Senate’s Committees on Homeland Security and Governmental
Affairs and Appropriations, and the House Committees on Homeland Security,
Transportation and Infrastructure, and Appropriations, the Office of Inspector General’s
(OIG) reporting pursuant to DARFA (§ 565(b)(4)) will follow the ground rules below.

   1. For the purposes of OIG reporting, FEMA efforts are defined as undertakings
      such as (i) notifying potential debtors; (ii) adjudicating and reviewing responses;
      (iii) evaluating support provided; (iv) making arrangements to collect, waive,
      partially waive, terminate debt, and refer matters to the U.S. Department of the
      Treasury; (v) implementing quality control measures; and (vi) training staff to
      perform the above tasks.

   2. Timeframe for the above FEMA efforts will be 15 days prior to the legislatively
      mandated deadline for each of the serial six OIG reports (e.g., the next OIG
      report, which is due on June 23, 2012, will cover our assessment activities up
      until June 8, 2012).

   3. Costs incurred by FEMA will include equipment and contractual expenses, and
      the salaries of temporary and permanent staff for those times they are assigned to
      efforts described in paragraph 1, above.

FEMA Implementation of DARFA
FEMA has established a centralized review and case management process, and provides
quality assurance and control activities. The Waiver Review Governance Group has
oversight of waiver determinations made by the Waiver Review Group. Each application
will be reviewed; every case is to be examined in light of its particular facts. According
to DARFA, FEMA has the authority to waive debts that satisfy the following conditions:

       Applicant debt will not be waived if it involves fraud, the presentation of a false
       claim, or a misrepresentation by the debtor or any party having an interest in the
       claim. Such cases will be referred to DHS OIG.

       FEMA will consider the fact that the agency’s systems were overwhelmed by the
       severity of Hurricanes Katrina and Rita and the volume of applicants. FEMA
       error may have resulted from manual processing error, failure to include
       information in the system, failure to follow established procedures, or
       intentionally lowering their system of internal controls to pay survivors more
       rapidly.

                                             3
       If assistance was distributed through no fault of the debtor, FEMA will consider
       unique circumstances that may have created the debt, such as mandatory
       evacuations, problems with communications, missing personal documents, and
       sustained chaotic conditions.

       Debts can be waived if collection would be “against equity and good conscience.”
       In doing so, FEMA will evaluate any financial hardship that would result from
       collection, whether a debtor spent the overpayment for disaster-related purposes
       and has no ability to repay funds, and other personal circumstances.

If the above conditions are met, the debtor may be eligible for a full or partial waiver
based on AGI. Although we have not yet reviewed the Internal Revenue Service’s ruling,
FEMA officials said that the Internal Revenue Service advised that debt waived under
DARFA will not be treated as earned income.

According to FEMA, because Congress passed DARFA as part of an annual
appropriations act and DARFA does not contain a provision extending its authority
beyond the end of fiscal year 2012, FEMA’s authority to waive debt under DARFA
expires at the end of fiscal year 2012.

Review Results to Date
Prior to the enactment of DARFA, FEMA sent out 89,850 Notice of Debt letters. Of that
number, 9,653 recipients, or about 11%, have responded. The U.S. Postal Service
returned 14,375 letters (16%) as “undeliverable.” The remaining 65,822 letters, or 73%,
have gone unanswered. FEMA considers the debts of the nonrespondents to be valid,
absent any evidence to the contrary.

Beginning in February 2012, FEMA began implementing DARFA with a review of the
debts of those survivors who had responded to the Notice of Debt letters and did not
receive a favorable decision. FEMA will also send Notice of Waiver letters to most
DARFA-eligible survivors, making them aware of DARFA and providing them 60 days
to apply for a waiver of their debt. FEMA will not send Notice of Waiver letters to those
who have already successfully appealed, been found guilty of fraud, been ordered by a
court to pay restitution, or individuals who are deceased. FEMA mailed 87,413 Notice of
Waiver letters and issued a directive addressing recoupment policy and procedures in
February 2012. Table 1 lists recoupment-related actions.




                                            4
              Table 1. Recoupment Actions as of February 7, 20121
                                    Action                       Total
              Universe of Possible Recoupment Cases               167,488
              Cases Reviewed, Not for Recoupment                   76,310
              Cases Identified for Potential Recoupment            91,178
              Potential Recoupment Candidates, Deceased             2,443
              Potential Recoupment Cases                           88,735
             Source: FEMA.

We have requested, and FEMA is assembling, information that will enable us to assign
costs to its recoupment activities. This information, as well as an interim cost-
effectiveness assessment, will be provided in our future reports.




1
  These numbers are subject to change as we are waiting FEMA reconciliation. They may be updated in our future
reports.

                                                        5

Appendix A
Purpose, Scope, and Methodology


The objective of this review was to determine the cost effectiveness of FEMA’s efforts to
recoup improper payments in accordance with the Disaster Assistance Recoupment
Fairness Act of 2011. To accomplish our objective, we reviewed and analyzed FEMA’s
Management Directive: Waiving Debts Pursuant to the Disaster Assistance Recoupment
Fairness Act of 2011, federal laws, regulations, and testimony, prior OIG reports relevant
to our review, and other applicable documents.

We interviewed FEMA headquarters officials and National Processing Service Center
employees in order to determine their plans for implementing the Disaster Assistance
Recoupment Fairness Act of 2011. We conducted these interviews at FEMA
Headquarters in Washington, DC. and Winchester, VA.

We conducted this review between February and March 2012 pursuant to the Inspector
General Act of 1978, as amended, and according to the Quality Standards for Inspections
issued by the Council of the Inspector General on Integrity and Efficiency.

We appreciate the efforts by FEMA management and staff to provide the information and
access necessary to accomplish this review.




                                            6

Appendix B
Major Contributors to this Report


                    Kaye McTighe, Director
                    Adrian Dupree, Audit Manager
                    Stuart Josephs, Program Analyst
                    John Meenan, Program Analyst




                                        7

Appendix C
Report Distribution

                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff
                      Deputy Chief of Staff
                      General Counsel
                      Executive Secretariat
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs
                      Under Secretary for Management
                      FEMA Audit Liaison

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Committee on Homeland Security and Governmental Affairs,
                      United States Senate

                      Committee on Appropriations, Subcommittee on Homeland
                      Security, United States Senate

                      Committee on Homeland Security
                      U.S. House of Representatives

                      Committee on Transportation
                      U.S. House of Representatives

                      Committee on Appropriations
                      Subcommittee on Homeland Security
                      U.S. House of Representatives




                                            8

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General
(OIG) at (202)254-4100, fax your request to (202)254-4305, or e-mail your request to
our OIG Office of Public Affairs at DHS-OIG.OfficePublicAffairs@dhs.gov. For
additional information, visit our OIG website at www.oig.dhs.gov or follow us on Twitter
@dhsoig.

OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to Department of Homeland Security programs and
operations:

• Call our Hotline at 1-800-323-8603

• Fax the complaint directly to us at (202)254-4292

• E-mail us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
        DHS Office of Inspector General/MAIL STOP 2600,
        Attention: Office of Investigation - Hotline,
        245 Murray Drive SW, Building 410
        Washington, DC 20528

The OIG seeks to protect the identity of each writer and caller.
